CD

No.

IN THE SUPREME COURT OF THE UNITED STATES

FILED
MAY 0 7 2021
SUPREEMEFCOURTLnftK

JENNIFER VAN BERGEN
a/k/a Gwendolyn Stone — Petitioner

PETITION FOR WRIT
OF CERTIORARI

vs.

> I

SCOTT KOPPEL, DPM, -- Respondent

t

1$

■/

■ ^

•

•

Ill^

ON PETITION FOR A WRIT OF CERTIORARI TO
FLORIDA FIRST DISTRICT COURT OF APPEALS

PETITION FOR WRIT
OF CERTIORARI

Gwendolyn W. Stone
f/k/a Jennifer Van Bergen
621 SE 73rd Terrace
Gainesville, FL 32641
(352) 872-0413

i

'

r ..

xv.tr-

"

.

■ ■

■

,

1
In Florida, where the presuit medical malpractice provisions require that a
plaintiff show a “reasonable belief” that malpractice occurred, but where a medical
expert affidavit is required to corroborate this belief as a procedural condition precedent
to filing a medical malpractice claim, and no common knowledge exception is allowed:

QUESTIONS PRESENTED
1.
Does the Florida Medical Malpractice Act’s presuit medical expert affidavit
requirement violate the 14th Amendment equal protection clause and the 5th and 14th
Amendment due process clauses of the U.S. Constitution for an indigent pro se litigant
where she can show a reasonable belief and make a prima facie case that negligence
occurred on common knowledge, without medical expert opinion or with medical
testimony from other treating doctors?
2.
Does the Florida medical expert affidavit requirement conflict with court rules
regarding the procedures for filing lawsuits and therefore violate the separation of
powers?
Does the finding that the “so-called [medical insurance] ‘crisis’ is nothing more
than the underwriting cycle of the insurance industry, and driven by the same factors
that caused the ‘crises’ in the 1970s and 1980s,” Estate of McCall v. U.S., 134 So.3d
894, 907 (Fla. 2014)(citing 2000 Florida Legislative Task Force findings), eviscerate
the legislative basis for the medical expert affidavit requirement, enacted in 1988 in
response to the alleged medical malpractice crisis then, and suggest similar disconnects
for medical malpractice expert affidavit requirements in other states, warranting this
Court’s intervention and guidance?
3.

2

LIST OF PARTIES
[X ] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition is as
follows:
RELATED CASES
(Relevant Orders)
8th Judicial Circuit Court of Florida, 2017-CA-3433, Jennifer Van Bergen v. Scott
Koppel, DPM, Order Granting Summary Judgment to Defendant, May 1, 2018.
First District Court of Appeals, Florida, ID 19-4566, Jennifer Van Bergen a/k/a
Gwendolyn Stone v. Scott Koppel, DPM, (Per Curiam) Affirmed (Denial of Relief
from Judgment), February 9, 2021 and Denial of Motion for Written Opinion, March
18, 2021.
(Other related cases, not relevant here)
8th Judicial Circuit Court of Florida, 2017-CA-0441, Jennifer Van Bergen v. Scott
Koppel, DPM, Petition for Automatic Extension, February 7, 2017.
First District Court of Appeals, Florida, Van Bergen v. Koppel, 1D19-2991 (Dismissal,
Nonfinal Appeal of Motion for Reconsideration), September 18, 2018.
First District Court of Appeals, Florida, Van Bergen v. Koppel, 1D19-4817 (Per
Curiam, Reversed and Remanded for Evidentiary Hearing on Excusable Neglect for
Filing Late Appeal) August 30, 2019.
First District Court of Appeals, Florida, Van Bergen a/k/a Stone v. Koppel, ID 19-4450
(Dismissed, Nonfinal Appeal) March 5, 2020. (Consolidated to 1D19-4566.)
First District Court of Appeals, Florida, Van Bergen a/k/a Stone v. Koppel, 1D19-4565
(Dismissed, Nonfinal Appeal) March 5, 2020. (Consolidated to 1D19-4566.)

3

TABLE OF CONTENTS

TABLE OF AUTHORITIES

5

OPINIONS BELOW.

8

JURISDICTION

9

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

10

STATEMENT OF THE CASE

11

LEGAL FRAMEWORK

11

PROCEDURAL HISTORY

12

REASONS FOR GRANTING THE WRIT

12

DISCUSSION

15

U.S. Supreme Court Review of State Decisions

15

Statutory Purpose Invalid

18

Other States

21

Indigency

23

Right of Access and Separation of Powers

25

The Medical Expert Affidavit Requirement Conflicts with Florida Caselaw..27
Reasonable Belief, Prima Facie Case, and Common Knowledge Rule
CONCLUSION

29

28

4

INDEX TO APPENDICES
APPENDIX A -- Florida First District Court of Appeals, ID19-4566, February 9,
2021, Per Curiam, Affirmance without Opinion.
APPENDIX B -- Florida First District Court of Appeals, ID 19-4566, March 18, 2021,
Motion for a Written Opinion Denied.
APPENDIX C — Florida 8th Judicial Circuit Court, 2017-CA-3433, Order Denying
Relief from Judgment, December 16, 2019.
APPENDIX D — Florida 8th Judicial Circuit Court, 2017-CA-3433, Order Granting
Summary Judgment to Defendant, May 1, 2018.
APPENDIX E -- Constitutional And Statutory Provisions Involved

5

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Atkins v. Humes, 110 So. 2d 663 (Fla. 1959)

13, 14

Boddie v. Connecticut, 401 U.S. 371 (1971)

23

Cohen v. Dauphinee, 739 So. 2d 68 (Fla. 1999)

19

Elliott v. Elliott, 648 So. 2d 137 (Fla. 4th DCA 1994)

17

England v. Medical Examiners, 375 U.S. 411 (1964)

17

Florida Hosp. Waterman v. Stoll, 855 So. 2d 271 (Fla. 5th DCA, 2003)

12

Florida V. Powell, 130 S.Ct. 1195, 449 U.S. 50 (2010)

17

Griffin v. Illinois, 519 U.S. 102 (1996)

23

Gutierrez v. Vargas, 239. So. 3d 615 (Fla. 2018)

14, 21

Harris v. Reed, 489 U.S. 255 (1989)

17

Holden v. Bober, 39 So.3d 396 (Fla. 2d DCA 2010)

27

Holl v. Talcott, 191 So. 2d 40 (Fla. 1966)

13

Ingersoll v. Hoffman, 589 So. 2d 223 (Fla. 1991)

12

Johnson v. State, 393 So.2d 1069 (Fla. 1980)

14, 22

Kluger v. White, 281 So. 2d 1 (Fla. 1973)

28

Kukral v. Mekras, 679 So. 2d 278 (Fla. 1996)

19, 27

Estate of McCall v. U.S., 134 So.3d 894 (Fla. 2014)

20, 28

Michigan v. Long, 463 U.S. 1032 (1983)

17

Nelson v. State, 362 So.2d 1017 (Fla. 3d DCA 1978)

14

New York ex Rel. Bryant v. Zimmerman, 278 U.S. 63 (1928)

18

Putman v. Wenatchee Valley Medical Center, 216 P.3d 374 (Wash. 2009)

25

6

San Antonio Indep. Sch. Dist. v. Rodriguez, 411 U.S. 1 (1973)

23

Shands Teaching Hosp. & Clinics, Inc. v. Barber,
638 So.2d 570 (Fla. IstDCA 1994)

27

Saunders v. Lischkoff, 137 Fla. 826, 188 So. 815 (Fla. 1939)

13

Whipple v. State, 431 So. 2d 1011 (Fla. 1st DCA 1983)

16

Wdson v. Lee Memorial Hospital, 65 So. 2d 40 (Fla. 1953)

27

Williams v. Campagnulo, 588 So. 2d 982 (Fla.1991)

19, 27

Zeier v. Zimmer, Inc., 152 P.3d 861 (Okla. 2006)

24

STATUTES AND RULES
Florida Statutes
Florida Stat. § 57.081

23

Florida Stat. § 57.082

23

Florida Stat. § 766.102

12

Florida Stat. § 766.102(9)(b)(2)(10)

12

Florida Stat. § 766.106

12

Florida Stat. § 766.201

11,19

Florida Stat. § 766.203

11

Florida Stat. § 766.204(2)

12

Other
Florida Rules of Appellate Procedure, Rule 9.030

16

Other Authorities
Tom Baker, The Medical Malpractice Myth 53-54 (2005)

21

In re: Amendments to Florida Rule of Civil Procedure 1.510, Case No. SC20-1490,
December 31, 2020

14

7

Joseph H. King, The Common Knowledge Exception To The Expert Testimony
Requirement For Establishing The Standard Of Care In Medical Malpractice, Ala. L.R.
Vol. 59:1:51 (November 2007)

21

Heather Morton, Medical Liability/Malpractice Merit Affidavits and Expert Witnesses,
National Conference of State Legislatures, June 24, 2014,
https://www.ncsl.org/research/financial-services-and-commerce/medical-habihty-malpra
ctice-merit-affidavits-and-expert-witnesses.aspx

21, 22

Reed Neil Olsen, The Reform of Medical Malpractice Law: Historical Perspectives,
Am. J. Econ. & Soc., 55 (No. 3):257 (July 1996)

18

8

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment
below.
OPINIONS BELOW

[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix to the petition
and is
[ ] reported at; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished. The opinion of the United States district court appears at Appendix
to the petition and is
[ ] reported at; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.

[X] For cases from state courts:

9
The date on which the highest state court (First District Court of Appeals) decided my
case was February 9, 2021 (an Affirmance without Opinion).
A copy of that decision appears at Appendix A.
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing appears at Appendix .
[ ] An extension of time to file the petition for a writ of certiorari was granted to and
including (date) on (date) in Application No.___ A
[X] The Florida Supreme Court does not have jurisdiction to review a state District
Court of Appeals (“DCA”) Affirmance without Opinion. (Florida Rules of Appellate
Procedure, Rule 9.030.) The First DCA denied Petitioner’s Motion for a Written
Opinion (filed February 19, 2021) on March 18, 2021 (a copy of that decision appears
at Appendix B), denied her Motion for a Stay (filed February 23, 2019) on March 1,
2021, and denied her Motion to Amend her Motion for Written Opinion (filed February
23, 2021) on March 1, 2021.
JURISDICTION
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

10
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
(See Appendix E)
United States Constitution
5th Amendment, Due Process Clause
14th Amendment, Due Process and Equal Protection Clauses
Florida Statutes
Florida Stat. § 766.102 (3)(b)
Florida Stat.§ 766.102 (5)
Florida Stat. § 766.102 (9)(b)(2)(10)
Florida Stat.§766.106(2)
Florida Stat. §766.201
Florida Stat.§766.202(6)
Florida Stat.§766.203
Florida Stat.§766.204
Florida Stat.§766.206

11

STATEMENT OF THE CASE
Petitioner timely sued the Respondent doctor in May 2017 for failure to advise
her of the risks and alternatives to surgery, performing unnecessary surgery, falsely
informing her of an incorrect recovery period in order to induce her to have surgery
(fraudulent inducment), failure to obtain her consent, negligent administration of meds,
negligent post-op care, and failure to investigate and to supply all medical records.
Petitioner, who has been at all times during the litigation of this case indigent (as
determined under statute) and pro se, claims that the medical expert affidavit
requirement of the Florida Medical Malpractice Act, as applied to her and those
similarly situated, violates her federal and state rights to due process, equal protection,
and access to courts, where this requirement is a condition precedent to filing suit and
no common knowledge exception is permitted. She also argues that the medical expert
affidavit requirement conflicts with court procedures for filing lawsuits and therefore
violates the separation of powers.
LEGAL FRAMEWORK
The Florida Medical Malpractice Act (hereafter “MMA”) requires that any action
involving a health care provider be filed under the MMA. Fla. Stat. §766.201(2).
Medical negligence claimants must file suit within two years, must engage in presuit
investigation prior to filing a claim, and must provide a medical expert affidavit that
corroborates their “reasonable belief” that medical negligence has occurred. Fla. Stat.
§766.203.

12
The expert affidavit requirement is a condition precedent not waivable by the
trial court, except where the defendant fails to provide complete medical records. Fla.
Stat. §§766.106, 766.204(2); Ingersoll v. Hoffman, 589 So. 2d 223, 224 (Fla. 1991);
Florida Hosp. Waterman v. Stoll, 855 So. 2d 271, 276 (Fla. 5th DCA, 2003). There are
no common knowledge or indigency exceptions.
Section 766.102(9)(b)(2)(10) stipulates that in any action alleging medical
negligence, an expert witness may not testify on a contingency fee basis.
PROCEDURAL HISTORY
This case does not provide an example of the early settlement intended by the
presuit requirements. The procedural history of this case, which has not yet been heard
on the merits, spans almost four years.
However, of sole relevance here, Petitioner complied with all presuit statutory
requirements except the medical expert affidavit. Respondent was granted summary
judgment in April 2018.
After four years of Petitioner’s motions for relief, reconsideration, written
clarifications, and more, the Florida First District Court of Appeals issued a Per Curiam
Affirmance on February 9, 2021 of the trial court’s denial of Plaintiff’s Motion for
Relief from Judgment.
REASONS FOR GRANTING THE PETITION
This case raises a question of great public importance: whether a state’s presuit
medical expert affidavit requirement, which excludes the common knowledge
exception, as applied to a vulnerable class of litigants, unduly discriminates in violation

13
of their federal rights of due process, equal protection, and right of access to courts, and
violates the separation of powers.
The vulnerable class members are those who file a malpractice claim with
expected damages too low to attract contingent-based legal representation, who can,
without a medical affidavit, establish reasonable belief and a prima facie case on
common knowledge, or common knowledge with minimal testimony from subsequent
treating physicians, that negligence occurred, and who are unable to afford an attorney
or medical expert. In other words: a pro se indigent litigant with a demonstrably
legitimate but small case.
It conflicts with long-standing tenets of summary judgment jurisprudence. (See
Saunders v. Lischkoff, 137 Fla. 826,188 So. 815, 820 (Fla. 1939), a malpractice case:
"If the evidence is conflicting or will permit of different reasonable inferences, or if
there is evidence tending to prove the issues, it should be submitted to a jury as a
question of fact to be determined by it, and not taken from the jury and passed upon by
the Court as a question of law.") (quoted in Atkins v. Humes, 110 So. 2d 663, 668 (Fla.
1959) (discussing cases).) See also Holl v. Talcott, 191 So. 2d 40, 43 (Fla. 1966) (“the
burden of proving the absence of a genuine issue of material fact is upon the moving
party”). 1
1

The Florida Supreme Court recently adopted the federal standard as “better
comport[ing] with the text and purpose of [the Florida summary judgment] rule 1.510,”
in which a party opposing summary judgment “must do more than simply show that
there is some metaphysical doubt as to the material facts” and “[where] evidence is
merely colorable, or is not significandy probative, summary judgment may be granted.”
In re: Amendments to Florida Rule of Civil Procedure 1.510, Case No. SC20-1490,
December 31, 2020. Internal citations omitted.
Where the common knowledge rule is prohibited in the presuit period, a plaintiff
with a case resting on common knowledge is prevented from offering probative
nonexpert evidence and cannot withstand summary judgment, even where (as here) the
defendant’s medical expert affidavit is deficient.

14
This strict presuit prohibition conflicts with both long-standing medical
negligence law in Florida (see Atkins, supra, passim (discussing cases)) and the current
rule which permits “hybrid” testimony from treating physicians at trial. (See, Gutierrez
v. Vargas, 239 So. 3d 615 (Fla. 2018).) The presuit medical expert requirement thus
sets a higher standard of proof before trial than that required at trial on the merits.2
The common knowledge rule (“CKR”) remains intact in Florida at trial. (“When
facts are within the ordinary experience of jurors, conclusions to be drawn therefrom
are left to the jury.” Johnson v. State, 393 So.2d 1069,1072 (Fla. 1980), quoting
Nelson v. State, 362 So.2d 1017, 1021 (Fla. 3d DC A 1978); see also, Gutierrez, 239.
So. 3d at 622 (citing Johnson).) However, the CKR is disallowed by the MMA at
presuit, creating a higher standard presuit than on the merits, conflicting with civil rules
regarding notice pleading, one of the primary components of our justice system, and
violating the power of the court to promulgate rules for its practice.
The Florida Supreme Court in 2014, in striking down the noneconomic damages
cap, eviscerated the alleged legislative purpose for the presuit medical expert
requirement, when it concluded that the legislative finding “that Florida was in the
midst of a bona fide medical malpractice crisis, threatening the access of Floridians to

^ Medical experts must submit to prior disclosure and must review patient records and
treatments, but in Florida, where a litigant must merely establish reasonable belief of
negligence or a prima facie case sufficient to pass summary judgment, full proof of
negligence is not yet required. A prima facie showing of negligence can be established
where, as here, a subsequent treating physician provided information to the claimant
during treatment which corroborates surgeon negligence. Similarly, to show that the
doctor lied to a patient about recovery time, as here, statements made by subsequent
treating doctors can establish standard of care. Breach, harm, and causation are jury
questions.

15
health care,” was “dubious and questionable at the very best” Estate of McCall v. U.S.,
134 So.3d 894, 909 (2014).
There are wide differences between the states regarding the CKR and indigency
on the presuit medical expert affidavit requirement. While indigency and the CKR are
widely accepted across the United States for court costs and proof at trial, respectively,
these considerations are unevenly and disparately applied across the states with respect
to presuit medical affidavit requirements.
There are, in addition, strong policy reasons for this Court to review Florida’s
medical expert provisions and determine the minimum constitutional standards. Small
cases should not be excluded from judicial determination or taken away from jury
fact-finding, not only because doing so excludes low-income litigants. Such cases mark
the minimum legal and constitutional standards, alerting both doctors and patients to
their rights and responsibilities. Without such minimum standards, doctors are
encouraged, as here, to engage in under-the-radar fraud, deception, and malpractice,
taking advantage of the uneducated, the disabled, seniors, and low-income individuals,
who have no remedy unless they lose life or limb.
DISCUSSION
U.S. Supreme Court Review of State Decision
Petitioner raised equal protection and right of access to court constitutional
questions at the outset in both her Notice of Intent and Complaint. She raised due
process in her subsequent early papers.3
3 Petitioner added due process in her first Motion for Reconsideration (Case No.
2017-CA-3433, May 15, 2018, pp. 19, 23). She initially addressed the constitutional
claims as state questions. In subsequent papers, she stated them more broadly as
constitutional questions and later specified them as both federal and state questions.
(Plaintiff’s Motion for Reconsideration, Case No. 2017-CA-3433, October 4, 2019, fn.

16
While Petitioner did not identify “separation of powers” in any of her pleadings
or appeals, she stated in her Complaint that the presuit requirements of the MMA “took
away from our courts in medical malpractice matters a significant power to do what
courts are supposed to do: decide on the basis of logic and reason what is a matter of
factual determination and what is a matter of authority (expert witness or law).”
(Complaint, 2017-A-3433, October 13, 2017, fn. 5.)
Petitioner further asserted in her amended brief on appeal from the trial court’s
denial of relief from judgment that “the vortex created by the [medical affidavit
requirement of the] Medical Malpractice Act itself, which denies pro se indigent
litigants due process, equal protection, or access to court” ... “prevents courts from
considering such claims, because it prevents affected litigants from being heard at all.”
(Amended Brief Of The Plaintiff-Appellant On Appeal From Denial Of Motions For
Relief From Judgment Under Rule 1.540(B), 1D19-4566, April 25, 2020, p. 29 and fn.
7.)

Although these constitutional questions in this context are ones of first
impression, the First DCA’s Per Curiam Affirmance without opinion (“PCA”) reaffirms
Florida courts’ inability or unwillingness to address these questions.
The Florida Supreme Court does not have jurisdiction to review an affirmance
without opinion. (Florida Rules of Appellate Procedure, Rule 9.030; Whipple v. State,
431 So. 2d 1011,1015 (Fla. 1st DCA 1983) (per curiam): “We recognize that if we
decide a case without writing an opinion, the losing party will be unable to obtain
2.) At the summary judgment hearing on April 23, 2018, she requested permission to
more fully brief the constitutional questions and was denied. The state courts at both
trial and appellate levels were well-advised of these challenges. Petitioner’s brief to the
First DCA on a trial court denial of relief from judgment again raised the constitutional
questions. (Amended Initial Brief, April 25, 2020, 1D19-4566, pp. 13-14, 22.)

17
further review in the supreme court.”) “[I]t is fundamental black letter law” that a PCA
“disposition affirming a trial court order without a written opinion, occurs when the
points of law raised are so well settled that a further writing would serve no useful
purpose.” Elliott v. Elliott, 648 So. 2d 137,138 (Fla. 4th DCA 1994).
The First DCA’s PCA in the present case thus indicates that that court considers
the matter of the presuit medical expert affidavit well settled, even in the present
context. In other words, the First DCA declines to reconsider the constitutional validity
of the affidavit requirement or to permit it to be submitted to the Florida Supreme
Court.
Where a litigant’s federal rights have been determined against her by the highest
possible state court, whether expressly or implicitly, the only course available is to
petition the U.S. Supreme Court. (See England v. Medical Examiners, 375 U.S. 411
(1964).) If the Florida First DCA wished to avoid the presumption that it had decided
the federal constitutional questions raised by Petitioner, it could have made that clear by
a plain statement in its opinion that federal law did not compel the result and state law
was dispositive. (See Michigan v. Long, 463 U.S. 1032 (1983); Harris v. Reed, 489
U.S. 255, 261 n.7 (1989) (collecting cases); Florida V. Powell, 130 S.Ct. 1195, 1201,
449 U.S. 50, [ ] (2010) (“[W]hen ... a state court decision fairly appears to rest
primarily on federal law, or to be interwoven with federal law, and the adequacy and
independence of any possible state-law ground is not clear from the face of its opinion,
this Court presumes that federal law controlled the state court’s decision.”)(Quoting
Michigan, 463 U. S. at 1040-1041).

18
A party seeking to litigate a federal constitutional issue on appeal of a state court
judgment must have raised that issue with sufficient precision to have enabled the state
court to have considered it.
There are various ways in which the validity of a state statute may be drawn in
question on the ground that it is repugnant to the Constitution of the United
States. No particular form of words or phrases is essential, but only that the
claim of invalidity and the ground therefor be brought to the attention of the
state court with fair precision and in due time. And if the record as a whole
shows either expressly or by clear intendment that this was done, the claim is to
be regarded as having been adequately presented.
New YorkexRel. Bryant v. Zimmerman, 278 U.S. 63, 67 (1928).
Petitioner here raised the state and federal constitutional claims from the outset
and reiterated them in briefs before both the state trial and appellate courts sufficiently
to bring them to the state courts’ attention with fair precision and in due time for the
state courts to have properly considered them.
Statutory Purpose Invalid
Health and welfare are traditionally state matters, but where, as here, the state
supreme court has found invalid the legislative rationale for a provision of the medical
malpractice law that implicates fundamental federal rights, the state can no longer claim
a legitimate or compelling state interest.
Across the United States starting in the 1980’s, states began enacting medical
malpractice “reform” laws, resting on an assumption that a “medical malpractice crisis”
existed. (See Reed Neil Olsen, The Reform of Medical Malpractice Law: Historical
Perspectives, Am. J. Econ. & Soc., 55 (No. 3):257 (July 1996).)
In enacting the presuit requirements in 1988, the Florida Legislature found that
“[mjedical malpractice liability insurance premiums have increased dramatically in

19
recent years, resulting in increased medical care costs for most patients and functional
unavailability of malpractice insurance for some physicians,” and that “[t]he primary
cause of increased medical malpractice liability insurance premiums has been the
substantial increase in loss payments to claimants caused by tremendous increases in the
amounts of paid claims.” Florida Stat. §766.201(1) (a) and (b).
The legislature stated that the medical expert affidavit requirement was due to
the “high cost of medical claims,” which the Legislature determined “can be
substantially alleviated by requiring early determination of the merit of claims ...
thereby reducing delay and attorney’s fees ... while preserving the right of either party
to have its case heard by a jury.” Fla. Stat. §766.201(l)(d).
Subsection (2)(a) of this provision states “Presuit investigation shall include: 1.
Verifiable requirements that reasonable investigation precede both malpractice claims
and defenses in order to eliminate frivolous claims and defenses. 2. Medical
corroboration procedures.” Fla. Stat. §766.201(2)(a). (Emphasis added.)
The Florida Supreme Court stated that “the prevailing policy of this state relative
to medical malpractice actions is to encourage the early settlement of meritorious claims
and to screen out frivolous claims.” Cohen v. Dauphinee, 739 So. 2d 68, 71 (Fla.
1999). The legislative purpose of the MMA was to “promote the settlement of
meritorious claims at an early stage without the necessity of a full adversarial
proceeding.” Williams v. Campagnulo, 588 So. 2d 982, 983 (Fla. 1991); see also
Kukral v. Mekras, 679 So. 2d 278, 281 (Fla. 1996) (quoting Williams, 588 So.2d at
983).

20

In 2014, however, the Florida Supreme Court decided that legislative findings
“that Florida was in the midst of a bona fide medical malpractice crisis, threatening the
access of Floridians to health care,” were “dubious and questionable at the very best.”
The Court struck down the noneconomic damages cap. Estate of McCall v. U.S., 134
So.3d 894, 909 (2014). The Court further found that “the conclusions reached by the
Florida Legislature as to the existence of a medical malpractice crisis are not fully
supported by available data,” and noted that the legislative Task Force itself had stated
that “this so-called 'crisis’ is nothing more than the underwriting cycle of the insurance
industry, and driven by the same factors that caused the ‘crises’ in the 1970s and
1980s.” McCall, 134 So.3d at 907. (Emphasis added.)
The McCall decision, although it was directed to the alleged medical malpractice
crisis of the early 2000’s and addressed the issue of discrimination on noneconomic
damages, also undid the legislative rationale for the 1988 presuit medical expert
requirement, which rested on the identical rationale — an alleged medical malpractice
crisis — and about which the court also raised doubts when it quoted the Task Force’s
finding that “this so-called ‘crisis’ is nothing more than the underwriting cycle of the
insurance industry ... driven by the same factors that caused the ‘crises’ in the 1970s
and 1980s.” Id.
According to the Petitioner in that case:
[T]he two most recent medical liability insurance crises [mid-1980s and early
2000s] did not result from sudden or dramatic increases in medical malpractice
settlements or jury verdicts. Instead ... the crises resulted from dramatic
increases in the amount of money that the insurance industry put in reserve for
claims. Those reserves increases were so big because the insurance industry
systematically under reserved in the years leading up to the crisis.

21
Estate of McCall v. U.S., Case No. SC11-1148, Initial Brief for Plaintiffs - Appellants,
On Discretionary Review from the United States Court of Appeals for the Eleventh
Circuit Case No. 09-16375J, pp. 26-27, quoting Tom Baker, The Medical Malpractice
Myth 53-54 (2005) and providing additional references in accord.
Where there existed no actual medical insurance crisis and the legislative grounds
are found to be fallacious, where it was “nothing more than the underwriting cycle of
the insurance industry,” and where this nonexistent crisis was the rationale for the
presuit medical expert affidavit requirement, there can be no compelling or legitimate
state interest involved in the requirement and the provision must fail where it invades
the fundamental rights of a vulnerable class of persons.
Other States
As of 2014, twenty-eight states required some form of medical expert affidavit
attesting to the alleged malpractice prior to claimant filing a complaint. (See Heather
Morton, Medical Liability/Malpractice Merit Affidavits and Expert Witnesses, National
Conference of State Legislatures, June 24, 2014 (chart listing statutes),
https://www.ncsl.org/research/financial-services-and-commerce/medical-liability-malpra
ctice-merit-affidavits-and-expert-witnesses.aspx; Joseph H. King, The Common
Knowledge Exception To The Expert Testimony Requirement For Establishing The
Standard Of Care In Medical Malpractice, Ala. L.R. Vol. 59:1:51 (November 2007).)
By a cursory review, at least six states permit the common knowledge exception
during presuit investigation. (See footnotes 4 and 5, infra.) In Florida, at trial, where
common knowledge is sufficient to determine a factual issue, medical expert testimony
is prohibited. Gutierrez, 239 So. 3d at 622 (“[W]e have held that expert testimony

22

should be excluded when the facts testified to ‘were within the ordinary experience of
the jurors and did not require any expertise beyond the common knowledge of the
jurors’ to form a reasoned judgment of the facts.” Quoting Johnson, 393 So.2d at 1072.
According to one scholar, “there continues to be widespread recognition of the
common knowledge exception in principle by the courts” across the states, apparently
even where a common knowledge exception is not acknowledged in the statute. (King,
Common Knowledge Exception, supra at 67-68; fns. 54 and 73.) However, the Florida
expert affidavit requirement does not permit courts to consider such an exception.
Twenty-eight states, including Florida, require either a medical expert affidavit
or an attorney certification of consultation with a medical expert.4 Twenty-three states
or territories have no medical expert statute.5 Three states that require an expert
affidavit contain statutory exceptions: one for indigency (Oklahoma), two for claims
within common knowledge (Arizona, Arkansas).
Indigency
The U.S. Supreme Court has viewed indigency as a suspect class where
important underlying rights are implicated, including access to courts (Boddie v.
4 (Arizona), (Arkansas), Colorado, Connecticut, Delaware, Florida, Georgia, Illinois,
Maryland, Michigan, Minnesota, Mississippi, Missouri, Nevada, New Jersey,* New
York,* North Dakota, Ohio,* (Oklahoma), Pennsylvania, South Carolina*, Tennessee,
Texas, Utah,* Vermont, Virginia, (Washington), West Virginia, Wyoming. (Morton,

Medical Liability/Malpractice Merit Affidavits, supra, chart listing statutes.)
(Parentheses indicate a common knowledge exception contained in statute. Asterisk
indicates a common knowledge exception applied by courts. See King, Common
Knowledge Exception, supra, fn. 55.)
5 Alabama, Alaska, California, District of Columbia, Guam, Idaho, Indiana, Iowa,
Kansas, Kentucky, Louisiana, Maine, Massachusetts, Montana, Nebraska, New
Hampshire, New Mexico, North Carolina, Oregon, Puerto Rico, Rhode Island, South
Dakota, Virgin Islands, Wisconsin. (Morton, Medical Liability/Malpractice Merit
Affidavits, supra, chart.)

23

Connecticut, 401 U.S. 371 (1971); Griffin v. Illinois, 519 U.S. 102 (1996).) Indigency
is not a suspect class where “the class of disadvantaged ‘poor’ cannot be identified or
defined ... and [without a determination that] the relative — rather than absolute -nature of the asserted deprivation is of significant consequence.” San Antonio Indep.
Sch. Dist. v. Rodriguez, 411 U.S. 1,19 (1973).
In Florida, indigency for purposes of exemption from court filing fees is clearly
defined by parameters set by state statute. Only persons whose annual income “is equal
to or below 200 percent of the then-current federal poverty guidelines” are deemed
indigent. The clerk has no discretion. Florida Stat. § 57.081 and § 57.082(1) and
(2)(a)l. The class is clearly defined.
Where a claimant is found indigent under a state standard that exempts her from
paying filing fees to obtain access to court, it is obvious that she cannot afford to pay
for legal representation. Where her case is deemed financially infeasible by medical
malpractice attorneys — even where consulting attorneys acknowledge the legal viability
of her case — the litigant must proceed by herself if she is to seek a remedy for the
harm she suffered.
But where a medical expert affidavit is mandated and a pro se litigant is indigent
as determined by state statute and cannot afford to hire a medical expert to provide such
an affidavit, she is deprived of the ability to litigate her claim. She is deprived of access
to court, due process, and the equal protection of the laws. The relative nature of her
deprivation is clearly of significant consequence.
In 2006, the Oklahoma Supreme Court ruled that the statute requiring plaintiffs
in medical malpractice tort suits to consult with, and to obtain a written opinion from, a

24

qualified expert in support of their claim prior to filing their lawsuits—was an
unconstitutional special law and monetary barrier to court access. Zeier v. Zimmer, Inc.,
152 P.3d 861 (Okla. 2006). Oklahoma law retains the medical expert requirement but
provides a statutory exemption for indigent litigants. Okla. Stat. tit. 12, §19.1(D).
Mirroring the concerns in the instant case, the Oklahoma Supreme Court
declared:
The Oklahoma Legislature implemented the Affordable Access to Health Care
Act (Health Care Act), 63 O.S. Supp.2003 § 1-1708.1A et seq. for the purpose
of implementing reasonable, comprehensive reforms designed to improve the
availability of health care services while lowering the cost of medical liability
insurance and ensuring that persons with meritorious injury claims receive fair
and adequate compensation. Although statutory schemes similar to Oklahoma's
Health Care Act do help screen out meritless suits, the additional certification
costs have produced a substantial and disproportionate reduction in the number
of claims filed by low-income plaintiffs. The affidavit of merit provisions
front-load litigation costs and result in the creation of cottage industries of firms
offering affidavits from physicians for a price. They also prevent meritorious
medical malpractice actions from being filed. The affidavits of merit'
requirement obligates plaintiffs to engage in extensive pre-trial discovery to
obtain the facts necessary for an expert to render an opinion resulting in most
medical malpractice causes being settled out of court during discovery. Rather
than reducing the problems associated with malpractice litigation, these
provisions have resulted in the dismissal of legitimately injured plaintiffs' claims
based solely on procedural, rather than substantive, grounds.
Zeier, 152 P.3d at 869.
The Oklahoma indigency exception recognizes that the expert affidavit
requirement unfairly burdens low-income litigants.
Right of Access and Separation of Powers
The medical expert affidavit requirement conflicts with the Florida system of
notice pleading, which requires a litigant to provide only:

25
(1) a short and plain statement of the grounds upon which the court’s jurisdiction
depends, unless the court already has jurisdiction and the claim needs no new
grounds of jurisdiction to support it, (2) a short and plain statement of the
ultimate facts showing that the pleader is entided to relief, and (3) a demand for
judgment for the relief to which the pleader deems himself or herself entitled.
Rule 1.110(b), Florida Rules of Civil Procedure.
“Several other state supreme courts have invalidated certificate and affidavit
requirements for medical malpractice litigation, holding that they conflict with court
rules regarding the procedures for filing lawsuits and therefore violate the separation of
powers.” Putman v. Wenatchee Valley Medical Center, 216 P.3d 374, 379 (2009)(listing
cases).6
The Washington Supreme Court in Putman struck down the medical expert
provision, finding it “jeopardizjed] the court's power to set court procedures” and
“violat[ed] the doctrine of separation of powers.” Id. at 380. The Putman Court also
found that “[rjequiring medical malpractice plaintiffs to submit a certificate prior to
discovery hinders their right of access to courts.” Id. at 377.
Like Florida, Washington is a notice pleading state, which requires only "a short
and plain statement of the claim" and a demand for relief in order to file a lawsuit. The
Washington Supreme Court found that:
6 “See, e.g., Summerville v. Thrower, 369 Ark. 231, 239, 253 S.W.3d 415 (2007)
(invalidating a statute that required medical malpractice plaintiffs to submit an affidavit
of reasonable cause from a medical expert within 30 days of filing); Wimley v. Reid,
991 So. 2d 135, 138 (Miss.2008) (invalidating a statute that required the plaintiffs
attorney to submit a certificate that he or she has consulted a medical expert prior to
filing); Hiatt v. S. Health Facilities, Inc., 68 Ohio St. 3d 236, 237-38, 1994-Ohio-294,
626 N.E.2d 71 (invalidating a statute requiring the plaintiffs attorney in a medical
malpractice action to submit an affidavit attesting that he or she had requested a copy of
the medical records). But see McAlister v. Schick, 147 Ill. 2d 84, 94, 588 N.E.2d 1151,
167 Ill. Dec. 1021 (1992) (upholding an affidavit statute, holding that the statute fell
within the legislature's power to enact laws "to determine and effectuate public policy"
and did not impede court's ability to control its procedures).” Putman, 216 P.3d at 379.

26

Under notice pleading, plaintiffs use the discovery process to uncover the
evidence necessary to pursue their claims. The certificate of merit requirement
essentially requires plaintiffs to submit evidence supporting their claims before
they even have an opportunity to conduct discovery and obtain such evidence.
For that reason, the certificate of merit requirement fundamentally conflicts with
the civil rules regarding notice pleading one of the primary components of our
justice system.
Id. at 379. (Internal citations removed.)
The Washington Supreme Court also concluded that the merit requirement
“changes the procedures for filing pleadings in a lawsuit, thereby jeopardizing the
court's power to set court procedures. When the activity of one branch invades the
prerogatives of another, there is a violation of the doctrine of separation of powers.” Id.
at 380.
In Wilson v. Lee Memorial Hospital, decided 35 years before the 1988 MMA was
enacted, the Florida Supreme Court addressed an issue of failure to state a cause of
action in the medical malpractice context and under Florida’s constitutional right of
access to court clause:
Complaints seeking to recover damages for tort should be tested by section 4 of
the Declaration of Rights, Florida Constitution, F.S.A., which speaks in the
imperative and requires that any one injured in his lands, goods, person or
reputation, shall have remedy by due course of law, without sale, denial or delay.
It is well to require the complaint to state a cause of action, but that done, it
should never be overthrown by technical impediments that do not go to the
merits of the cause. Whether the technical impediment be a rule or statute is not
material. It is certain that the makers of the constitution did not intend that one
injured in "lands, goods, person or reputation" be deprived of a right of action.
Wilson v. Lee Memorial Hospital, 65 So. 2d 40, 41 (Fla. 1953).

27

The medical expert affidavit requirement eviscerates the important and
long-standing principles articulated in the Wilson case and conflicts with the more
recent decisions of high courts in other states about right of access and the court’s
power to set court procedures for filing lawsuits.
The Medical Expert Affidavit Requirement Conflicts with Florida Caselaw
Under the MMA, to maintain a reasonable belief that medical negligence
occurred, a victim need not prove negligence. The presuit investigation process was
’’intended to promote the settlement of meritorious claims at an early stage without the
necessity of a full adversarial proceeding." Kukral, 679 So. 2d at 280, quoting
Williams, 588 So. 2d at 983.
Florida courts have clearly stated that “[t]he provisions of sections 766.201 .212, Florida Statutes [the presuit provisions], are not to be allowed to impinge upon
plaintiffs' right of access to the courts and must be construed as imposing upon
plaintiffs only a reasonable and limited duty before allowing them to file a suit.”
Shands Teaching Hosp. & Clinics, Inc. v. Barber, 638 So.2d 570, 571 (Fla. 1st DCA
1994) (citations omitted).
“[T]he standard as to whether a reasonable basis has been shown should be
similar to the standard that is applied to determine whether a complaint states a cause of
action.” Holden v. Bober, 39 So.3d 396, 400 (Fla. 2d DCA 2010).
The seminal Florida case construing the access guarantee is Kluger v. White, 281
So. 2d 1 (Fla. 1973), which held that “the Legislature is without power to abolish [a
preexisting common-law] right without providing a reasonable alternative to protect the
rights of the people of the State to redress for injuries, unless the Legislature can show

28

an overpowering public necessity for the abolishment of such right, and no alternative
method of meeting such public necessity can be shown.” Id. at 4.
The medical expert requirement plainly does not contain a reasonable alternative
for plaintiffs, thus failing the first prong of the Kluger test. After McCall, it also cannot
satisfy the second prong of the test - an overpowering public necessity. The Kluger test
is functionally equivalent to the strict scrutiny test under equal protection.
Reasonable Belief, Prima Facie Case, and Common Knowledge Rule
While a victim of medical malpractice may (and in Florida, must) attempt to
reach setdement before going to court, a pro se indigent victim basing her reasonable
belief claim or her prima facie case on a factual jury issue under the CKR is unlikely to
accomplish pre-trial settlement, which leaves court as her only means of redress -- the
one place Florida excludes her absolutely. In this scenario, the defendant doctor knows
that if he can keep the case away from a jury, he can avoid all liability for having
engaged in negligent practices. This opens the door for doctors to take advantage of
those most vulnerable, those whom every doctor knows will be unable to hold him
accountable.
To establish issues of material fact, the plaintiff must make a prima facie case of
medical negligence, she must show a duty of care, breach, and causation. Here, it is
within common knowledge that a doctor has a duty not to he to a patient to whom he
recommends surgery. Not within common knowledge is the length of time of recovery,
a matter about which Petitioner here testified to the remarks of two treating doctors.
Since a summary judgment hearing is a record hearing, not an evidentiary hearing,
Petitioner was merely asserting triable issues of fact. She did not supply affidavits or

29
testimony from those doctors. In the absence of a CKR, the court was not permitted to
consider these material facts and it ordered judgment against Petitioner.
Similarly, a jury could have determined without medical expertise that it is
negligent for a foot surgeon to allow a recovering surgical patient to crawl on all fours
for days or weeks and fail to provide for appropriate ambulatory assistance. As to this
fact, Petitioner supplied her own affidavit and affidavits of witnesses, to no avail.
It is the jury’s duty to determine whether these failures constitute negligence and
caused harm to the plaintiff.
These facts were sufficient to establish both reasonable belief and a prima facie
case that could survive summary judgment, if the trial court had been permitted to
consider common knowledge.
The Respondent’s medical expert certification, which stated that Petitioner’s
X-Rays justified the surgery, was deficient in answering the factual matters Petitioner
had raised and did not warrant summary judgment. But again, where the plaintiff is
required to supply a medical expert affidavit, the defendant's irrelevant expert
certification permits, even requires, that the court grant summary judgment to the
defendant.
The doctor might well have felt the surgery was justified by his own judgment
without the patient having agreed or consented, but medical procedures are not a
merry-go-round justifying a doctor’s judgment of what is medically right; they require
patient knowledge and consent.

30

CONCLUSION
For all these reasons, the petition for a writ of certiorari should be granted.

Respectfully submitted.

Gwendolyn W. Stone

Date:

May 6. 2021

